tf XI0N3ddV

Page 1 of 2

Lexis Advance

Document: Venegas v. Rewerts, 2019 U.S. App. LEXIS 6800

Venegas v. Rewerts, 2019 U.S. App. LEXIS 6800
Copy Citation

United States Court of Appeals for the Sixth Circuit
March 6, 2019, Filed
No. 18-1648
Reporter
2019 U.S. App. LEXIS 6800 *

LEON VENEGAS, JR., Petitioner-Appellant, v. RANDEE REWERTS, WARDEN, Respondent-Appellee.

Prior History: Venegas v. Jackson, 2018 U.S. Dist. LEXIS 80597 (W.D. Mich., May 14, 2018)

Core Terms
en banc, petition for rehearing

Counsel: [*1] Leon Venegas, Jr., Petitioner - Appellant, Pro se, Carson City, MI.

For RANDEE REWERTS, Warden, Respondent - Appellee: Bruce H. Edwards -w, Office of the Attorney General of Michigan,
Lansing, MI.

Judges: Before: KEITH ▼, KETHLEDGE ■*-, and THAPAR

t,

Circuit Judges.

Opinion

ORDER
Leon Venegas, Jr., petitions for rehearing en banc of this court's order entered on December 26, 2018, denying his application
for a certificate of appealability. The petition was initially referred to this panel, on which the original deciding judge does not
sit. After review of the petition, this panel issued an order announcing its conclusion that the original application was properly
denied. The petition was then circulated to all active members of the court, none of whom requested a vote on the suggestion
for an en banc rehearing. Pursuant to established court procedures, the pane! now denies the petition for rehearing en banc.

https://advance. lexis. com/documentprint/documentprintcIick/?pdmfid=l 000516&crid=25c... 5/31/2020

B XIQNBddtf

Case: 18-1648

Document: 14-2

Filed: 12/26/2018

Page: 1

No. 18-1648
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

LEON VENEGAS, JR.,
Petitioner-Appellant,
v.

RANDEE REWERTS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Dec 26, 2018
DEBORAH S. HUNT, Clerk

ORDER

Leon Venegas, Jr., a Michigan prisoner proceeding pro se, seeks to appeal the district
court’s denial of his 28 U.S.C. § 2254 petition and has applied for a certificate of appealability.
See Fed. R. App. P. 22/hVIV
After a jury found him guilty of domestic violence and unlawful imprisonment, Venegas
challenged those convictions. But the state court of appeals affirmed, and the state supreme
court denied him leave to appeal. People v. Venegas, No. 325380, 2016 WL 3365170 (Mich. Ct.
App. June 16, 2016), perm. app. denied, 888 N.W.2d 102 (Mich. 2017).
Venegas then filed his § 2254 petition, asserting four grounds for relief: (1) the trial
court improperly denied his request to represent himself, (2) the trial court improperly denied
substitution of trial counsel, (3) trial counsel provided ineffective assistance, and (4) the
prosecution presented false testimony. A magistrate judge recommended that the district court
deny the petition, and over Venegas’s objections, the district court adopted that recommendation,
denying the petition and declining to issue a certificate of appealability. This appeal followed.

Case: 18-1648

Document: 14-2

Filed: 12/26/2018

Page: 2

No. 18-1648
-2This court will issue a certificate of appealability “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C: S 2253tc¥2V To satisfy
that standard with respect to a claim rejected on the merits, a petitioner must demonstrate “that
jurists of reason could disagree with the district court’s resolution of his constitutional claims or
that jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.”

Miller-El v. Cockrell, 537 U.S. 322. 327 (2003).

When assessing a

constitutional claim, a district court cannot grant relief from a merits adjudication unless the state
court’s decision “was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States” or “was based on an
unreasonable determination of the facts.” 28 U.S.C. § 2254fdY1W2Y To the extent a petitioner
challenges factual determinations, “a determination of [the] factual issue made by [the state]
court shall be presumed to be correct,” and the petitioner “shall have the burden of rebutting the
,

presumption of correctness by clear and convincing evidence.” 28 IJ.S.C. § 2254(eY1T
As his first ground, Venegas claimed that the trial court improperly denied his effort to
exercise his right to self-representation. Although the Sixth Amendment provides the right to
self-representation, that right is not absolute and a defendant must timely, unequivocally,
:

knowingly, and intelligently invoke it. Faretta v. California, 422 U.S. 806. 818-32 (1975);
United States v. Martin, 25 F.3d 293. 294-96 (6th Cir. 1994).
The state court of appeals rejected this claim because Venegas decided to proceed with
counsel at the beginning of his first trial and did not seriously invoke his right to self­
representation at the outset of his second trial. Venegas, 2016 WL 3365170. at *3. The district
court determined that the state court of appeals reasonably applied Faretta and its progeny
because the record made it clear that Venegas’s request was not serious. To the extent Venegas
argued that the trial court had a rule against self-representation, the district court rebuffed that
claim by citing the trial court’s discussion concerning self-representation at the beginning of
Venegas’s first trial. Although Venegas now claims that the trial court had to conduct some
inquiry into his second request, the Supreme Court has not clearly required a trial court to do so

Case: 18-1648

Document: 14-2

Filed: 12/26/2018

Page: 4

No. 18-1648
-4As his fourth ground, Venegas asserted that the prosecution presented false testimony.
But he has abandoned that claim on appeal, citing the lack of documentary evidence to support
his assertion.
For these reasons, Venegas’s application for a certificate of appealability is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

3 XIQNBddtf

i

Page 1 of 5

Lexis Advance

®

Document: Venegas v. Jackson, 2018 U.S. Dist. LEXIS 80597

Venegas v. Jackson, 2018 U.S. Dist. LEXIS 80597
Copy Citation
United States District Court for the Western District of Michigan, Southern Division
May 14, 2018, Decided; May 14, 2018, Filed
CASE NO. 1:17-CV-173
Reporter
2018 U.S. Dist. LEXIS 80597 * | 2018 WL 2200009

LEON VENEGAS JR., Petitioner, v. SHANE JACKSON, Respondent.

Subsequent History: Petition denied by Venegas v. Rewerts, 2019 U.S. App. LEXIS 6800 (6th Cir., Mar. 6, 2019)

Prior History: Venegas v. Jackson, 2018 U.S. Dist. LEXIS 8.1.627 (W.D. Mich., Mar. 5, 2018)

Core Terms
trial court, Recommendation, magistrate judge, certificate, appoint, court of appeals, district judge, self-representation, trial
judge, circumstances, convictions, charges

Counsel: [*1] Leon Venegas #262267, Jr., petitioner, Pro se, Carson City, MI.

For Shane Jackson, named as Sherman Campbell, respondent: Bruce H. Edwards -»■, John S. Pallas -w, MI Dept Attorney
General (Appellate), Lansing, MI.

Judges: HON. ROBERT J. JONKER

CHIEF UNITED STATES DISTRICT JUDGE.

Opinion by: ROBERT J. JONKER-r

Opinion

ORDER APPROVING AND ADOPTING REPORT AND RECOMMENDATION
The Court has reviewed Magistrate Judge Kent's Report and Recommendation in this matter (ECF No. 16) and Petitioner's
Objection to it (ECF No. 18). Under the Federal Rules of Civil Procedure, where, as here, a party has objected to portions of a
Report and Recommendation, "[t]he district judge . . . has a duty to reject the magistrate judge's recommendation unless, on
de novo reconsideration, he or she finds it justified.” 12 Wright, Miller & Marcus, Federal Practice and procedure § 3070.2,
at 451 (3d ed. 2014). Specifically, the Rules provide that:

https (//advance, lexis. com/documentprint/documentprintclick/?pdmfid=l 000516&crid-lef...

5/31/2020

Page 2 of 5

The district judge must determine de novo any part of the magistrate judge's disposition that has been properly
objected to. The district judge may accept, reject, or modify the recommended disposition; receive further
evidence; or return the matter to the magistrate judge with instructions.
Fed R. Civ. P. 72(b)(3). De novo review in these circumstances [*2] requires at least a review of the evidence before the
Magistrate Judge. Hill v. Duriron Co., 656 F.2d 1208, 1215 (6th Cir. 1981). The Court has reviewed de novo the claims and
evidence presented to the Magistrate Judge; the Report and Recommendation itself; and Petitioner's Objections. After its
review, the Court finds that Magistrate Judge Kent's Report and Recommendation is factually sound and legally correct and
accordingly adopts its conclusion that Petitioner is not entitled to habeas corpus relief.

PROCEDURAL BACKGROUND
The Michigan Court of Appeals summarized the facts underlying Petitioner's convictions in this case as follows:
Defendant was charged with domestic violence (third offense), unlawful imprisonment, and witness retaliation,
MCL 750.122(8), arising out of a physical altercation with his then girlfriend, Angela Baker. On the date of the
altercation, Baker drove defendant to a park. Defendant was drinking alcohol and argued with Baker about
leaving the park. According to Baker, defendant grabbed her keys, her keyring broke, and she sustained a cut
finger. Roughly two hours later, she and defendant drove to the hospital, where Baker received two stitches for
the laceration on her finger. She went to the police department the next day and [*3] reported the incident.
During the course of the proceedings below, Baker’s testimony about the altercation changed in several respects.
At the preliminary examination, Baker denied that defendant put his hands on her during the altercation. She also
denied that defendant had threatened her or attempted to influence her testimony in any way. But Baker later
admitted that her testimony at the preliminary examination was untruthful. Contrary to her prior testimony, she
indicated that defendant had physically assaulted her at the park, threatened her, and prevented her from leaving
for several hours, only permitting her to drive to the hospital after she promised she would not call the police. As
a result, the prosecution entered an immunity agreement with Baker under MCL 780.701. In exchange for her
promise to testify truthfully at trial, Baker was granted immunity regarding her perjurious testimony at the
preliminary examination.
At an early pretrial conference, the prosecution informed the trial court that defendant had attempted to use
other jail inmates' calling cards to contact Baker, in direct contravention of the district court's order that
defendant have neither phone privilege nor any form [*4] of contact with Baker. The prosecution played a
recording of a phone call between another inmate and the mother of defendant's child; its purpose was to induce
the mother to relay information to Baker. As a result, the trial court revoked defendant's bond and phone
privileges.
Defendant was represented by three different appointed attorneys in the trial court, and he made several
requests to represent himself. At a bond hearing, defendant asked to represent himself after the trial court denied
his request to appoint new counsel. He repeatedly interrupted the trial court and continued to press his
arguments after the trial judge had announced her ruling. After ignoring the trial court's instruction for him to
remain silent, defendant was held in contempt. While he was being removed from the courtroom, defendant went
on a profanity ridden tirade. He cast aspersions at the court and its officers, accused them of racism, and referred
to the trial judge as "bitch."
Before trial, the defense sought to subpoena recordings of certain prison telephone conversations between
defendant and Baker that took place while defendant was incarcerated in the Ottawa County jail on unrelated
charges. At a [*5] bond hearing, defendant's appointed counsel informed the court that he was having difficulty
serving the subpoena. Defendant requested substitute counsel, contending that his new counsel had done nothing
for him and had lied to his family. The trial court denied defendant's request, reasoning that defendant had not
shown a breakdown in the attorney-client relationship.
Defendant proceeded to trial twice. At the outset of defendant's first trial, defendant pointed out that counsel had
still not obtained the phone calls from Ottawa County. The trial court noted that the parties had discussed the
matter and that defense counsel had decided against using the calls on the ground that their content would be
prejudicial to defendant. Counsel stated that he understood that in one call Baker stated that the charges in this
case were "payback" for defendant's act of wrecking her truck. Counsel acknowledged that such evidence could
be viewed as exculpatory, but he contended that other exculpatory evidence existed and stated that evidence
that defendant had been incarcerated for other charges would be prejudicial to defendant. Defendant again
requested the appointment of substitute counsel. The [*6] trial court denied the request. Thereafter, defendant
briefly considered representing himself, but he ultimately decided to proceed with counsel.
Following deliberations after the first trial, the jury acquitted defendant of witness retaliation but was unable to
reach a verdict on the remaining charges. At the conclusion of the second trial, a jury convicted him of the
remaining charges.
(6/16/16 Mich. Ct. App. Opinion (MCOA Op.), ECF No. 9-19, PagelD.703-704). Petitioner was sentenced on December 8, 2014,
to 12 to 30 years on the lawful imprisonment conviction, concurrent with 5 to 16 years, 8 months on the domestic violence
conviction. (ECF No. 9-18).
Petitioner unsuccessfully appealed his convictions through the state courts. On February 21, 2017, Petitioner filed his habeas
petition which raised four grounds for relief, as follows:

https ://advance. lexis. com/documentprint/documentprintclick/?pdmfid=l 000516&crid-lef...

5/31/2020

Page 3 of 5

I. The trial court denied Mr. Venegas his constitutional rights to self-representation when it ignored his request to
represent himself and foreclosed further discussion of the issue.
II. The trial court improperly denied Mr. Venegas repeated requests for substitute counsel even though he and his
appointed counsel had a major strategy disagreement, in that [*7] counsel refused to even obtain and review
evidence Mr. Venegas wanted to present at trial, and there had been a resulting breakdown in their attorney
client relationship.
III. Trial counsel's refusal to obtain, despite Mr. Venegas' pleas, impeachment evidence in a trial that hinged on
credibility constituted ineffective assistance of counsel that requires a new trial.
IV. [Petitioner] was denied his state and federal due process rights where his convictions were obtained through
the use of false and perjured testimony by the prosecution witness(s), where his rights to a fair trial were
protected by the procedural safeguard in paragraph #6 of the immunity agreement the prosecution had with the
witness, Angela Baker that her testimony would be truthful and where the prosecution failed to correct those false
statements made this issue a serious error that prejudiced the defense and deprived defendant of a fair trial and
proves prosecutorial misconduct.
(ECF No. 1-1, PageID.17). On March 5, 2018, the Magistrate Judge recommended denying all four grounds for relief. (ECF No.
16). Petitioner's Objection was filed on March 22 (ECF No. 18) but is dated March 19, 2018. Under the prison mailbox [*8]
rule, the Court finds Petitioner's Objection was timely filed. Petitioner brings four specific objections—one for each of the four
grounds for relief. The matter is ripe for decision.

PETITIONER'S OBJECTION

1- Self Representation
In his first objection, Petitioner argues the Magistrate ignored both fact and law when he determined Petitioner was not
entitled to habeas relief with respect to ground I of the petition. The gravamen of Petitioner's claim is that the Magistrate failed
to consider the fact that the presiding judge at his trial had an "unconstitutional blanket-rule" that she did not allow defendants
to represent themselves in her courtroom, and that the Magistrate improperly concluded that Petitioner had not unequivocally
requested to represent himself. Petitioner's objection is without merit.
First of all, Petitioner's argument that the trial judge had a blanket rule of failing to permit self-representation falls flat based
on the simple fact that the same judge, at the beginning of his first trial, extensively discussed whether Petitioner wanted to
represent himself during that trial. (ECF No. 9-8, PagelD.293-302). The trial judge would not have engaged in such a
discussion [*9] if that court had the blanket policy that Petitioner complains of. And it was Petitioner, not the state trial court,
that decided to continue the first trial with counsel. (ECF No. 9-8, PagelD.301).
Notwithstanding the above, Petitioner highlights the following comments from the trial court during his September 18, 2013,
arraignment:
If you want to act as co-counsel with that attorney, you let me know. If you want to help drive the bus, that's
fine. But here's how we do it in my courtroom. I don't let you represent yourself. I assign co-counsel. The minute
that your bus driven by you goes off into the woods, your co-counsel gets to drive the bus.
(ECF No. 9-4, PagelD.235-236). While some of the language used by the trial court could perhaps be seen, at first glance, as a
policy preventing a defendant from representing himself at trial, a careful review read in the context of the proceedings shows
that the trial court's policy was in fact that it would appoint co-counsel for defendants who wished to represent themselves
during trial. The trial court would then permit the defendant to "drive the bus," but would not permit dilatory or obstructionist
behavior. All this is consistent with, [*10] not contrary to, clearly established federal law. See McKaside v. Wiggins, 465 U.S.
168, 178-79, 104 S. Ct. 944, 79 L. Ed. 2d 122 (1984) (holding that it was permissible to appoint standby counsel over a pro
se defendant's objections); see also Faretta v. California, 422 U.S. 806, 835 n.6, 95 S. Ct. 2525, 45 L. Ed. 2d 562 (1975)
(holding that a "trial judge may terminate self-representation by a defendant who deliberately engages in serious and
obstructionist misconduct.").
The second portion of this objection is that Petitioner unequivocally requested to represent himself at the start of his second
trial. This objection is also without merit. In evaluating Petitioner's direct appeal, the state court of appeals framed the issued
around a three-part test:
The right of self-representation is secured by both the Michigan Constitution, Const 1963, art 1, § 13, and by
statute, MCL 763.1. The right of self-representation is also implicitly guaranteed by the Sixth Amendment of the
United States Constitution. People v Anderson, 398 Mich 361, 366, 247 N.W.2d 857; 398 Mich. 361, 247 NW2d
857 (1976). To invoke the right of self-representation: (1) a defendant must make an unequivocal request to
represent himself, (2) the trial court must determine that the choice to proceed without counsel is knowing,
intelligent, and voluntary, and (3) the trial court must "determine that the defendant's acting as his own counsel
will not disrupt, unduly inconvenience and [*11] burden the court and the administration of the court’s
business." Id. at 367-368.

https://advance.lexis.com/documentprint/documentprintclick/7pdmfid-l 000516&crid-lef...

5/31/2020

Page 4 of 5

(ECF No. 9-19, PageID.705). Applying this test, the court of appeals concluded Petitioner could not meet it because, based on
the entirety of the record, the request Petitioner made was not serious. (Id. at PagelD.705-706).
The Magistrate found that this was not an unreasonable application of clearly established federal law, and the Court agrees.
Dunigan, the case referenced by the court of appeals, derived the three part test from a decision from the Michigan Supreme
Court, People v. Anderson, 398 Mich. 361, 247 N.W.2d. 857 (Mich. 1976), Anderson, in turn was rooted in the Supreme
Court's decision in Faretta. Id. at 859. Thus, as the Magistrate concluded, the court of appeals decision was consistent with,
not contrary to, clearly established federal law. Moreover, the application was eminently reasonable based upon the entirety of
the record. Petitioner's flippant response to the trial court, after previous discussions where Petitioner sought to represent
himself only to later retreat from that position, provides ample support for the court of appeals' conclusion that Petitioner's
statement to the judge was not serious. Petitioner's first objection is accordingly overruled.

2. Right to Counsel / Ineffective f*121 Assistance of Counsel
Petitioner's second and third objection both relate to the performance of his counsel for his second trial. The objections may be
considered together because Petitioner admits in his third objection that the objection "has basically been addressed
previously" through his second objection. (ECF No. 18, PagelD.1093). At bottom, In both objections Petitioner contends the
Magistrate erred by determining that counsel had made a strategic decision not to pursue discovery and introduce into
evidence certain telephone conversations between Petitioner and the victim in this case. The decision could not be strategic, in
Petitioner's mind, because his counsel did not obtain and review those calls.
The insinuation that counsel somehow could not make a strategic decision about those jail calls between Petitioner and the
victim because counsel had not reviewed those calls is contradicted by the record. While it may be the case that counsel did
not acquire those records to the satisfaction of Petitioner, the record demonstrates that counsel was aware of the substance of
those calls. The prosecuting attorney, for example, informed the court that he had presented a transcript of 1*13] those calls
to Petitioner's attorney and pointed out parts that were prejudicial against Petitioner to counsel. (ECF No. 9-8, PagelD.294).
Counsel himself confirmed that to be the case to the court shortly thereafter. (Id. at PagelD.295).
Counsel's knowledge of the content of these calls, which are accurately described in the Report and Recommendation,
demonstrate that the decision not to pursue these calls any further was eminently reasonable. See Strickland v. Washington,
466 U.S. 668, 691, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984) (noting that "[i]n any ineffectiveness case, a particular decision
not to investigate must be directly assessed for reasonableness in all the circumstances, applying a heavy measure of
deference to counsel's judgments."). "The relevant question is not whether counsel's choices were strategic, but whether they
were reasonable." Roe v. Flores-Ortega, 528 U.S. 470, 481, 120 S. Ct. 1029, 145 L. Ed. 2d 985 (2000); accord Clinkscale v.
Carter, 375 F.3d 430, 443 (6th Cir. 2004). Accordingly Petitioner's second and third objections are overruled.

3. Prosecutorial Misconduct
In his last objection, Petitioner merely states that he objects to the Magistrate's Recommendation that he is not entitled to
habeas relief as to ground IV of the petition. Petitioner presents no argument here, and his blanket objection is too vague and
general to merit review. An objection that fails to explain [*14] and cite the problematic portions of the Report and
Recommendation, and that only incorporates by reference arguments raised in previous briefs, is not sufficiently specific to
merit consideration. See Neuman v. Rivers, 125 F.3d 315, 322-23 (6th Cir. 1.997); see also Howard v. Secretary of HHS, 932
F.2d 505, 509 (6th Cir. 1991) ("A general objection to the entirety of the magistrate's report has the same effects as would a
failure to object."). In any event, the objection also fails on the merits. The Magistrate correctly found that the Michigan courts'
determination that Petitioner failed to establish a prosecutorial misconduct claim was entirely consistent with clearly
established federal law. For these reasons, Petitioner's fourth objection is overruled.

MOTION FOR RELEASE ON BOND
On February 8, 2018, Petitioner filed a motion for release on bond pending the disposition of his habeas petition. (ECF No. 13).
In Dotson v. Clark, 900 F.2d 77 (6th Cir. 1990), the Court of Appeals recognized that, in limited circumstances, a district court
may grant bond pending a decision on the merits of a habeas corpus petition. The Dotson court indicated, however, that the
power to release a petitioner on bond must be exercised sparingly and only in the presence of exceptional circumstances.
Dotson, 900 F.2d at 79; see also Lee v. Jabe, 989 F.2d 869, 871 (6th Cir. 1.993). Under Dotson, the prisoner seeking release
on bond "must [*15] be able to show not only a substantial claim of law based on the facts surrounding the petition but also
the existence of some 'circumstance making the [motion for bail] exceptional and deserving of special treatment in the
interests of justice.'" Dotson, 900 F.2d at 79 (quoting Aronson v. May, 85 S. Ct. 3, 5, 13 L. Ed. 2d 6 (1964)). The habeas
petitioner, who is incarcerated under a presumptively valid criminal conviction, is on a much weaker footing than a pretrial
accused or even a convicted defendant waiting appeal. See Ostrer v. United States, 584 F.2d 594, 599 (2d Cir. 1978).
Applying the two-prong test in Dotson, and for the reasons discussed above, this Court finds neither a substantial claim on the
merits of the petition nor exceptional circumstances deserving special treatment in the interest of justice. The motion is
denied.

https ://advance. lexis. com/documentprint/documentprintclick/?pdmfid=l 000516&crid-lef...

5/31/2020

Page 5 of 5

CERTIFICATE OF APPEALABILITY
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a petitioner may not appeal in a habeas corpus case unless a
circuit justice or judge issues a certificate of appealability. 28 U.S.C. § 2253(c)(1). The Federal Rules of Appellate Procedure
extend to district judges the authority to issue certificates of appealability. Fed. R. App. P. 22(b); see also Castro v. United
States, 310 F.3d 900, 901-02 (6th Cir. 2002) (the district judge "must issue or deny a [certificate of appealability] if an
applicant files a notice of appeal pursuant to the explicit [*16] requirements of Federal Rule of Appellate Procedure 22(b)
(1)"). However, a certificate of appealability may be issued "only if the applicant has made a substantial showing of the denial
of a constitutional right." 28 U.S.C. § 2253(c)(2).
To make this showing, the petitioner must demonstrate that reasonable jurists could "debate whether (or, for that matter,
agree that) the petition should have been resolved in a different manner or that the issues presented were 'adequate to
deserve encouragement to proceed further.'" Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)
(quoting Barefoot v. Estelle, 463 U.S. 880, 894, 103 S. Ct. 3383, 77 L. Ed. 2d 1090 (1983)). When a district court rejects a
habeas petition on the merits, the required "substantial showing" is "straightforward: The petitioner must demonstrate that
reasonable jurists would find the district court's assessment of the constitutional claims debatable or wrong." Slack, 529 U.S.
at 484.
In this case, Petitioner has not made a substantial showing of the denial of a constitutional right. Therefore, he is not entitled
to a certificate of appealability.

CONCLUSION
ACCORDINGLY, IT IS ORDERED that the Report and Recommendation of the Magistrate Judge (ECF No. 16) is APPROVED
AND ADOPTED as the opinion of the Court.
IT IS FURTHER ORDERED that:
1. Petitioner's Motion for Release on Bond (ECF No. 13) is DENIED. ■
2. The Petition for Writ of Habeas Corpus (ECF £*17] No. 1) is DENIED and this case is DISMISSED.
3. Petitioner is DENIED a certificate of appealability. See Slack v. McDaniel, 529 U.S. 473, 120 S. Ct. 1595, 146
L. Ed. 2d 542 (2000).
A separate Judgment shall issue.
Dated: May 14, 2018
/s/ Robert J. Jonker^
ROBERT J. JONKER-*CHIEF UNITED STATES DISTRICT JUDGE

Content Type: Cases
Terms: 2018 U. S. DI5T. IEXIS 80597
Narrow By: Sources: All States Cases
Date and Time: May 31,2020 07:52:52 a.m. CDT

LexisNexis'

About
LexisNexis®

Privacy
Policy

Cookie
Policy

Terms &
Conditions

Sign
Out

Copyright
©2020
LexisNexis.
All rights
reserved.

RRELX Group”

https://advance. lexis. com/documentprint/documentprintclick/?pdmfid=l 000516&crid=lef...

Print

5/31/2020

Q XIQN3ddtf

Page 1 of 9

Lexis Advance

®

Document: Venegas v. Jackson, 2018 U.S. Dist. LEXIS 81627

Venegas v. Jackson, 2018 U.S. Dist. LEXIS 81627
!

Copy Citation

United States District Court for the Western District of Michigan, Southern Division
March 5, 2018, Decided; March 5, 2018, Filed
Case No. 1:17-CV-173 '
Reporter
2018 U.S. Dist. LEXIS 81&27 *

LEON VENEGAS JR., Petitioner, v. SHANE JACKSON, Respondent.

Subsequent History: Adopted by, Writ of habeas corpus denied, Motion denied by, Certificate of appealability denied.
Dismissed by Venegas v. Jackson, 2018 U.S. Dist. LEXIS 80597 (W.D. Mich., May 14, 2018)

Prior History: People v. Venegas, 2016 Mich. App. LEXIS 1177 (Mich. Ct. App., June 16, 2016)

Core Terms
self-representation, recordings, trial court, appointed, court of appeals, trial strategy, first trial, charges, Jail, second trial,
proceedings, courtroom, clearly established federal law, substitute counsel, state court, incarcerated, certificate, convictions,
impeachment, telephone, ineffective assistance claim, assistance of counsel, ineffective, preliminary examination, request to
represent, criminal defendant, good cause, black eye, circumstances, conversations

Counsel: [*1] Leon Venegas, Jr., petitioner, Pro se, Carson City, MI.

For Shane Jackson, named as Sherman Campbell, respondent: Bruce H. Edwards ■*, John S. Pallas

MI Dept Attorney

General (Appellate), Appellate Division, Lansing, MI.

Judges: Ray Kent’*, United States Magistrate Judge. Honorable Robert J. Jonker-*-.

Opinion by: Ray KenW

Opinion

REPORT AND RECOMMENDATION

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l000516&crid=792... 5/31 /2020

Page 2 of 9

This is a habeas corpus action brought by a state prisoner under 28 U.S.C. § 2254. Petitioner Leon Venegas Jr. is incarcerated
with the Michigan Department of Corrections at the Carson City Correctional Facility (DRF) in Carson City, Michigan. On
October 23, 2014, an Ingham County Circuit Court jury found Petitioner guilty of one count of unlawful imprisonment, Mich.
Comp. Laws § 750.349b, and one count of domestic violence-third offense, Mich. Comp. Laws § 750.81(5). On December 8,
2014, the court sentenced Petitioner as a habitual offender-fourth offense, Mich. Comp. Laws § 769.12, to 12 to 30 years on
the unlawful imprisonment conviction, concurrent to 5 years to 16 years, 8 months on the domestic violence conviction.
On February 15, 2017, Petitioner filed his habeas corpus petition raising 4 grounds for relief, as follows:
I. The trial court denied Petitioner his constitutional rights to self-representation when it ignored his request to
represent himself and foreclosed [*2] further discussion of the issue.
II. The trial court improperly denied Petitioner's repeated requests for substitute counsel even though he and his
appointed counsel had a major strategy disagreement, in that counsel refused to even obtain and review
evidence Petitioner wanted to present at trial, and there had been a resulting breakdown in their attorney-client
relationship.
III. Trial counsel's refusal to obtain, despite Petitioner's pleas, impeachment evidence in a trial that hinged on
credibility constituted ineffective assistance of counsel that requires a new trial.
IV. Petitioner was denied his state and federal due process rights where his convictions were obtained through
the use of false and perjured testimony by the prosecution[']s witness(s), where his rights to a fair trial were
protected by the procedural safeguard in paragraph #6 of the immunity agreement the prosecution had with the
witness, Angela Baker[,] that her testimony would be truthful and where the prosecution failed to correct those
false statements made this issue a serious error that prejudiced the defense and deprived Petitioner of a fair trial
and proves prosecutorial misconduct.
(Pet., ECF No. 1-1, PagelD.17-20.) [*3] Respondent has filed an answer to the petition (ECF No. 8) stating that the grounds
should be denied because they are without merit. Upon review and applying the standards of the Antiterrorism and Effective
Death Penalty Act of 1996, Pub. L. 104-132, 110 Star. 1214 (AEDPA), I find that the grounds are meritless. Accordingly, I
recommend that the petition be denied.

Discussion

I. Factual Allegations
Petitioner and the victim of his crimes, Angela Baker, continued an on-again, off-again intimate relationship after Petitioner
was released from jail on June 6, 2013. On the night of June 7, 2013, Ms. Baker drove Petitioner to Moores Park on the south
bank of the Grand River in Lansing, Michigan. (Trial II, Tr. II, ECF No. 9-16, PagelD.555-557.) Both Petitioner and Ms. Baker
acknowledge that an argument ensued, but their testimony differed irreconcilably as to the details. The conflict became
physical and there were resulting injuries to Ms. Baker. Petitioner claims Ms. Baker injured herself, hitting herself in the face
and cutting her finger as she tried to pull the keys away from him. (Trial II, Tr. Ill, ECF No. 9-17, PagelD.622-623, 626.)
Petitioner claims they then spent a couple of hours in the park because they could [*4] not find the key. (Id., PagelD.625626.)
Ms. Baker claims Petitioner injured her, choking her and hitting her, and her finger was cut as she tried to wrest her keys from
Petitioner. (Trial II, Tr. II, ECF No. 9-16, PagelD.557-559.) They remained in the park for several hours; Petitioner would not
let her leave. (Id., PagelD.560.) Ms. Baker moved into the backseat of the car. (Id.) Petitioner continued to threaten her, and
her dog. (Id.) Eventually, the altercation became physical again and Petitioner hit Ms. Baker in the head. (Id., PagelD.560561.) As morning approached, Petitioner began to sober up. (Id., PagelD.561-562.) Petitioner permitted Ms. Baker to drive to
the hospital. (Id.) At her father's urging, Ms. Baker reported the incident to.the police the next day. (Id., PagelD.563.)
The jury credited Ms. Baker's account.
With the exception of habeas issue IV, the petition for relief is not based upon events during that trial, it is based on events
that occurred before that trial. The three-day trial during October of 2014 was the second attempt to prosecute Petitioner for
these crimes. The first trial spanned five days during August and September of 2014. (Trial I, Tr. I-V, ECF Nos. [*5] 9-8,
9-10, 9-12, 9-13, 9-14.) The jury could not reach a verdict on the two crimes of which Petitioner was eventually convicted.
(Trial I, Tr. V, ECF No. 9-14, PagelD.483.) The jury found Petitioner not guilty of a third charge, retaliating against a witness,
Mich. Comp. Laws § 750.122(8). (Id.)
The matters at issue in habeas issues I, II, and III occurred, principally, during and before Petitioner's first trial. Thus, some
review of the pretrial proceedings is necessary to resolve the issues Petitioner has raised.
At the preliminary examination, Ms. Baker told a story that was entirely inconsistent with her report to the police, but eerily
similar to Petitioner's trial testimony. (Prelim. Exam. Tr. I, ECF No. 9-2, PagelD.137-155.) The court granted a continuance.
(Id,, PagelD.160.) At the continued hearing, the prosecution introduced the testimony of Lansing Detective Richard Reust
regarding recorded telephone calls between Petitioner and Ms. Baker that occurred while Petitioner was detained at the
Ingham County jail. (Prelim. Exam. Tr. II, ECF No. 9-3, PagelD.168-182.) Detective Reust identified several critical
inconsistencies between Ms. Baker's preliminary examination testimony and statements made during the [*6] telephone
calls. (Id.) Detective Reust also identified the hospital records, obtained by search warrant, wherein Ms. Baker's description of
the events was different than her preliminary examination testimony. (Id., PagelD.182-187.) Lansing police officer Corey
Campbell also testified regarding Ms. Baker's report of the incident to him. (Id., PagelD.192-199.)

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=792... 5/31/2020

Page 3 of 9

After the prosecution rested, Petitioner wanted to put Ms. Baker back on the stand; his counsel did not. (Id., PagelD.203-205.)
At that point, the court permitted Petitioner to represent himself for the purpose of questioning Ms. Baker. (Id., PagelD.205206.) Petitioner examined Ms. Baker and she again told a story that was consistent with Petitioner’s trial testimony and
inconsistent with the testimony of Detective Reust and Officer Campbell. (Id., PagelD.207-213, 216-218.) The court permitted
the prosecutor to amend the charges to include witness retaliation and unlawful imprisonment and then bound Petitioner over
for trial. (Id., PagelD. 220.)
Petitioner responded to the court's ruling on the record with rude and profane comments. (Id., PagelD.221-222.)
Petitioner's preliminary examination counsel continued In his stand-by role [*7] at the circuit court arraignment. (Arr. Tr.,
ECF No. 9-4, PagelD.226-227.) However, because the charges had been amended to include witness retaliation at the
preliminary examination, Petitioner's habitual offender status ratcheted the potential penalty to life imprisonment and his
counsel was no longer qualified to continue to represent Petitioner at further circuit court proceedings. (Id., PagelD.226-227,
235.) The court relieved counsel of his responsibilities as stand-by counsel. (Id., PagelD.235.) The court indicated to Petitioner
that she would appoint qualified counsel, but if Petitioner wanted to continue to drive the bus, new counsel would not be
"stand by" counsel but co-counsel. (Id., PagelD.234-239.) Petitioner indicated that he would like new counsel to be primary
counsel. (Id., PagelD.239.)
The court appointed Mark Taylor who appeared on Petitioner's behalf at the criminal pretrial. (Pretrial Tr., ECF No. 9-5,
PagelD.246.) At the pretrial the prosecutor asked that Petitioner's bond be revoked because he had violated the court's order
and used the phone to make contacts in violation of the court's order. (Id., PagelD.246-249.) Counsel advised Petitioner to
remain silent. [*8] (Id., PagelD.254, 261.) Petitioner ignored that advice, again rejecting his counsel. (Id., PagelD.262.) He
was ultimately held in contempt, multiple times, and removed from the courtroom. (Id., PagelD.262-264.) Once again,
Petitioner ended his time in the courtroom with a profanity-ridden tirade. (Id.)
The court then appointed Petitioner's third and final trial counsel. Nonetheless, Petitioner continued to file his own motions and
act on his own behalf. (Mot. Hr'g I Tr., ECF No. 9-6, PagelD.269-270.) At a hearing on June 25, 2014, Petitioner indicated his
desire to fire his third attorney. (Mot. Hr'g II Tr., ECF No. 9-7, PagelD.286.) The court reviewed the file and concluded counsel
was pursuing Petitioner's defense vigorously and that Petitioner had failed to provide any cause, such as a breakdown in the
relationship, to warrant counsel's removal. (Id., PagelD.287-290.)
The first 36 pages of transcript from Petitioner's first trial relate to Petitioner's attempt to represent himself. (Trial I, Tr. I, ECF
No. 9-8, PagelD.293-302.) The bone of contention between Petitioner and his counsel was counsel's strategic decision to
forego acquisition and introduction of recorded telephone conversations [*9] between Petitioner and the victim that occurred
while Petitioner was incarcerated in the Ottawa County Jail. The Michigan Court of Appeals explained the dispute as follows:
At the outset of defendant's first trial, defendant pointed out that counsel had still not obtained the phone calls
from Ottawa County. The trial court noted that the parties had discussed the matter and that defense counsel had
decided against using the calls on the ground that their content would be prejudicial to defendant. Counsel stated
that he understood that in one call Baker stated that the charges in this case were "payback" for defendant's act
of wrecking her truck. Counsel acknowledged that such evidence could be viewed as exculpatory, but he
contended that other exculpatory evidence existed and stated that evidence that defendant had been
incarcerated for other charges would be prejudicial to defendant. Defendant again requested the appointment of
substitute counsel. The trial court denied the request. Thereafter, defendant briefly considered representing
himself, but he ultimately decided to proceed with counsel.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD.704.) Even without the Ottawa County Jail calls, [*10] counsel obtained an
acquittal with respect to one charge and a hung jury on the other two. (Trial I, Tr. V, ECF No. 9-14, PagelD.483-484.)
Nonetheless, at the beginning of his second trial a few weeks later, after counsel failed to sufficiently press Petitioner's
argument that there was a mistake in the transcript of the first trial, Petitioner again announced his intention to fire his
attorney. (Trial II, Tr. 1, ECF No. 9-15, PagelD.488-492.) This time, the trial judge did not entertain Petitioner's fickleness. She
simply told Petitioner to sit down lest he be removed from the courtroom. (Id., PagelD.492.)
The second trial proceeded much like the first; however, this time the jury convicted Petitioner. (Trial II, Tr. Ill, ECF No. 9-17,
PagelD.687-689.) Petitioner was sentenced as outlined above. (Sentencing Tr., ECF No. 9-18, PagelD.702.) He directly
appealed his convictions to the Michigan Court of Appeals. Petitioner filed two briefs on appeal: the first, filed with the
assistance of counsel, raised habeas issues I-III (Appellant's Br., ECF No. 9-19, PagelD.746); the second, filed in pro per,
raised habeas issue IV (Appellant's Pro Per Br., ECF No. 9-20, PagelD.856). Petitioner also [*11] filed a motion to remand for
consideration of his fourth habeas issue contending that his counsel was ineffective for failing to obtain and then use telephone
conversations between Petitioner and the victim while Petitioner was incarcerated in the Ottawa County Jail during August of
2013. (Mot. to Remand, ECF No. 9-19, PagID.727-733.) In lieu of remanding, the court of appeals agreed to consider the
recordings as submitted by Petitioner when considering his ineffective assistance claim. (Mich. Ct. App. Ord., ECF No. 9-19,
PagelD.742.)
The Michigan Court of Appeals rejected Petitioner’s arguments and affirmed his convictions by opinion entered June 16, 2016.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD.703-709.) Petitioner filed a pro per application for leave to appeal in the Michigan
Supreme Court. That court denied leave by order entered January 5, 2017. (Mich. Ord., ECF No. 9-21, PagelD.912.) Petitioner
did not file a petition for certiorari in the United States Supreme Court. (Pet., ECF No. 1, PagelD.3.) He timely filed this petition
on February 15, 2017.

II. AEDPA standard
The AEDPA "prevents federal habeas 'retrials'" and ensures that state court convictions are given effect to the [*12] extent
possible under the law. Bell v. Cone, 535 U.S. 685, 693-94, 122 S. Ct. 1843, 152 L. Ed, 2d 914 (2002). An application for writ
of habeas corpus on behalf of a person who is Incarcerated pursuant to a state conviction cannot be granted with respect to
any claim that was adjudicated on the merits in state court unless the adjudication: "(1) resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law as determined by the Supreme Court of

https://advance.lexis.com/documentprint/documentprintclick/7pdmfkNl 000516&crid=792... 5/31/2020

Page 4 of 9
the United States; or (2) resulted in a decision that was based upon an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding." 28 U.S.C. § 2254(d). This standard is "intentionally difficult to meet."
Woods v. Donald, 575 U.S._, 135 S. Ct. 1372, 1376, 191 L. Ed. 2d 464 (2015) (internal quotation omitted).
The AEDPA limits the source of law to cases decided by the United States Supreme Court. 28 U.S.C. § 2254(d). This Court may
consider only the "clearly established" holdings, and not the dicta, of the Supreme Court. Williams v. Taylor, 529 U.S. 362,
412, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000); Bailey v. Mitchell, 271 F.3d 652, 655 (6th Cir. 2001). In determining whether
federal law is clearly established, the Court may not consider the decisions of lower federal courts. Lopez v. Smith, 135 S. Ct.
1, 3, 190 L. Ed. 2d 1 (2014); Bailey, 271 F.3d at 655. Moreover, "clearly established Federal law" does not include decisions of
the Supreme Court announced after the last adjudication of the merits in state court. Greene v. Fisher, 565 U.S. 34, 132 S. Ct.
38, 181 L. Ed. 2d 336 (2011). Thus, the inquiry [*13] is limited to an examination of the legal landscape as it would have
appeared to the Michigan state courts in light of Supreme Court precedent at the time of the state-court adjudication on the
merits. Miller v. Stovall, 742 F.3d 642, 644 (6th Cir. 2014) (citing Greene, 565 U.S. at 38).
A federal habeas court may issue the writ under the"contrary to" clause if the state court applies a rule different from the
governing law set forth in the Supreme Court's cases, or if it decides a case differently than the Supreme Court has done on a
set of materially indistinguishable facts. Bell, 535 U.S. at 694 (citing Williams, 529 U.S. at 405-06). "To satisfy this high bar, a
habeas petitioner is required to 'show that the state court's ruling on the claim being presented in federal court was so lacking
in justification that there was an error well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.'" Woods, 135 S. Ct. at 1376 (quoting Harrington v. Richter, 562 U.S. 86, 103, 131 S. Ct.770, 178 L. Ed. 2d
624 (2011)). In other words, "[wjhere the precise contours of the right remain unclear, state courts enjoy broad discretion in
their adjudication of a prisoner’s claims." White v. Woodall, 572 U.S. 415, 134 S. Ct. 1697, 1705, 188 L. Ed. 2d 698 (2014)
(internal quotations omitted).
The AEDPA requires heightened respect for state factual findings. Herbert v. Billy, 160 F.3d 1131, 1134 (6th Cir. 1998). A
determination of a factual issue made by a state court is presumed to be correct, and the petitioner has [*14] the burden of
rebutting the presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Lancaster v. Adams, 324 F.3d 423, 429
(6th Cir. 2003); Bailey, 271 F.3d at 656. This presumption of correctness is accorded to findings of state appellate courts, as
well as the trial court. See Sumner v. Mata, 449 U.S. 539, 546, 101 S. Ct. 764, 66 L. Ed. 2d 722 (1981); Smith v. Jago, 888
F,2d 399, 407 n.4 (6th Cir. 1989).

III. Self-representation
Petitioner first complains that, on the first day of his second trial, the trial court would not permit him to represent himself. The
Sixth Amendment provides that a criminal defendant shall have the right to the assistance of counsel for his defense. U.S.
Const, amend. VI. At issue here is a corollary to that right, the right to self-representation. Adams v. U.S. ex ret. McCann, 317
U.S. 269, 279 (1942), 63 S. Ct. 236, 87 L. Ed. 268 ("The right to assistance of counsel and the correlative right to dispense
with a lawyer's help are not legal formalisms."). The clearly established federal law regarding self-representation is expressed
in two Supreme Court cases: Faretta v. California, 422 U.S. 806, 95 S. Ct. 2525, 45 L. Ed. 2d 562 (1975) and Martinez v. Ct.
of Appeal of Cal., Fourth App. Dist., 528 U.S. 1.52, 120 S. Ct. 684, 145 L. Ed. 2d 597 (2000).
In Faretta, the Court found support for the right of self-representation in the structure of the Sixth Amendment right to the
assistance of counsel:
The Sixth Amendment does not provide merely that a defense shall be made for the accused; it grants to the
accused personally the right to make his defense. It is the accused, not counsel, who must be 'informed of the
nature and cause of the accusation,' who must be 'confronted with the witnesses against [*15] him,' and who
must be accorded 'compulsory process for obtaining witnesses in his favor.’ Although not stated in the
Amendment in so many words, the right to self-representation—to make one's own defense personally—is thus
necessarily implied by the structure of the Amendment. The right to defend is given directly to the accused; for it
is he who suffers the consequences if the defense fails.
The counsel provision supplements this design. It speaks of the 'assistance' of counsel, and an assistant, however
expert, is still an assistant. The language and spirit of the Sixth Amendment contemplate that counsel, like the
other defense tools guaranteed by the Amendment, shall be an aid to a willing defendant—not an organ of the
State interposed between an unwilling defendant and his right to defend himself personally. To thrust counsel
upon the accused, against his considered wish, thus violates the logic of the Amendment. In such a case, counsel
is not an assistant, but a master; and the right to make a defense is stripped of the personal character upon
which the Amendment insists. It is true that when a defendant chooses to have a lawyer manage and present his
case, law and tradition may allocate to the [*16] counsel the power to make binding decisions of trial strategy
in many areas. . . . This allocation can only be justified, however, by the defendant's consent, at the outset, to
accept counsel as his representative. An unwanted counsel 'represents' the defendant only through a tenuous and
unacceptable legal fiction. Unless the accused has acquiesced in such representation, the defense presented is
not the defense guaranteed him by the Constitution, for, in a very real sense, it is not his defense.
Faretta, 422 U.S. at 819-821 (footnotes and citations omitted). Although the Court recognized a criminal defendant's right to
self-representation, it acknowledged that the right was a qualified one. The Constitutional mandate to provide counsel to a
criminal defendant is premised upon the fact that"[I]t is undeniable that in most criminal prosecutions defendants could better
defend with counsel's guidance than by their own unskilled efforts," Id. at 834. Because a criminal defendant representing
himself relinquishes that benefit, his waiver must be "'knowingly and intelligently'" made. Id. at 835. Moreover, the right to
self-representation must yield to "'the dignity of the courtroom."’ Id. at 834 n.46. It is not a license to ignore the rules of
procedure [*17] or engage in "obstructionist misconduct." Id.

https (//advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=792... 5/31/2020

Page 5 of 9

In Martinez, 528 U.S. at 152, the Supreme Court concluded that the right of self-representation did not extend to appeals. In
reaching its conclusion, the Supreme Court commented on the scope of the right of self-representation established in Faretta,
stating:
As the Faretta opinion recognized, the right to self-representation is not absolute. The defendant must
"'voluntarily and intelligently"' elect to conduct his own defense, and most courts require him to do so in a timely
manner. He must first be "made aware of the dangers and disadvantages of self-representation.” A trial judge
may also terminate self-representation or appoint "standby counsel"-even over the defendant's objection - if
necessary. We have further held that standby counsel may participate in the trial proceedings, even without the
express consent of the defendant, as long as that participation does not "seriously undermin[e]" the " appearance
before the jury" that the defendant is representing himself. Additionally, the trial judge is under no duty to
provide personal instruction on courtroom procedure or to perform any legal "chores" for the defendant that
counsel would normally carry out. Even [*18] at the trial level, therefore, the government's interest in ensuring
the integrity and efficiency of the trial at times outweighs the defendant's interest in acting as his own lawyer.
Martinez, 528 U.S. at 161-162 (citations and footnote omitted).
Neither the trial court nor the state appellate court referenced Faretta or Martinez in evaluating Petitioner's request to
represent himself. Instead, the state appellate court relied on People v. Dunigan, 299 Mich. App. 579, 831 N.W.2d 243 (Mich.
Ct, App. 2013) which, in turn, relied on People v. Anderson, 398 Mich. 361, 247 N.W.2d 857 (Mich. 1976). In Anderson, the
Michigan Supreme Court established three requirements that must be met before a criminal defendant in Michigan can proceed
pro se:
First, the request must be unequivocal .... Second, once the defendant has unequivocally declared his desire to
proceed Pro se the trial court must determine whether defendant is asserting his right knowingly, intelligently and
voluntarily. . . . The third and final requirement is that the trial judge determine that the defendant's acting as his
own counsel will not disrupt, unduly inconvenience and burden the court and the administration of the court's
business.
Anderson, 247 N.W.2d at: 859-860. The Anderson court, however, drew its three requirements directly from the circumstances
that swayed the Faretta court to recognize the right of self-representation. [*19] Id. at 859 f'[T]he [Faretta] Court carefully
noted the circumstances under which Faretta was deprived of his constitutional right to conduct his own defense. The
circumstances, affirmatively shown by the record, involved a clear and unequivocal request, weeks before trial, by a literate,
competent, and understanding individual.") Thus, considering Petitioner's request for self-representation under Anderson is
consistent with, and not contrary to, clearly established federal law.
The trial court's treatment of Petitioner's request, measured against the requirements of Anderson, was deemed to be an
appropriate exercise of the court's discretion. The court of appeals reasoned:
Defendant made several requests to represent himself throughout the proceedings in the trial court. The record
demonstrates that defendant's pattern was to react and seek to represent himself only when he seemed
dissatisfied with a statement by counsel or a ruling from the trial court. At the beginning of the first trial, the trial
court engaged in an extensive discussion with defendant regarding the seriousness of the charges he faced and
the difficulties of representing himself. Defendant decided to continue with counsel. [*20] This discussion
substantially complied with Anderson and MCR 6.005(D).
When defendant renewed his request to represent himself at the start of his second trial, again after receiving an
unfavorable ruling from the court, the trial court responded as follows:
THE DEFENDANT: I want to fire my attorney.
THE COURT: Denied. Have a seat.
THE DEFENDANT: Well, I’ll represent myself then, how about that?
THE COURT: Have a seat, how about that? Now, you can either behave, sir, in this courtroom and
have a trial with your presence or you can have a trial without your presence. That's my ruling.
Have a seat.
Although the trial court stated no findings in support of its ruling, it is clear from the record that, in light of
defendant's identical request at the outset of the first trial, the trial court had concluded that defendant's request
was not serious and that, accordingly, further consideration under Anderson and MCR 6.005(D) was unnecessary.
It is also clear from the trial court's comments that it was concerned that defendant's proposed self­
representation posed a significant danger of disrupting the administration of the court's business, i.e., defendant's
jury trial. Given defendant's outrageous behavior during pretrial [*21] proceedings, and his disregard for prior
court orders, we believe that the trial court's concern in that regard was well founded. Thus, we conclude that the
trial court did not abuse its discretion by denying defendant's request to represent himself.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD.705-706.)
The Michigan Court of Appeals' determination finds ample support in the record. Viewed in isolation, the trial court's
consideration of Petitioner's request on the first day of the second trial might seem inadequate and abrupt. Viewed against the

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=:l000516&crid-792... 5/31/2020

Page 6 of 9

criminal proceedings as a whole, however, the trial court's curt rejection of Petitioner's suggestion was entirely appropriate.
Petitioner had rejected his counsel and sought to proceed on his own at virtually every opportunity. When the district court
judge let Petitioner so proceed, it ended in a profane tirade. When the circuit court judge let him so proceed, it ended in a
profane tirade, multiple contempt holdings, and removal from the courtroom. Nonetheless, when Petitioner made an
unequivocal request on the first day of the first trial, after reviewing the charges and penalties, the court permitted him to
represent himself with counsel continuing [*22] on as co-counsel. As she reviewed the requirements of going forward,
however, Petitioner wavered. (Id., PageID.300.) The court continued to review what would be required of Petitioner if he
represented himself. Petitioner took a brief recess to speak with counsel and, ultimately, decided to proceed with counsel.
When Petitioner voiced his dissatisfaction with counsel again on the first day of the second trial, although Petitioner's desire to
stand alone may have been voluntary and knowing, it was far from unequivocal. Petitioner's ''How about that?" sounded more
like a petulant retort to the court's denial of Petitioner’s request for a transcript "correction" than any certain request for self­
representation. Moreover, Petitioner's history of uncontrolled outbursts in the courtroom and the concomitant risk of mistrial
augured against giving Petitioner the opportunity to give effect to his suggestion.
The state courts' refusal to permit Petitioner to represent himself at trial was entirely consistent with—not contrary to, or an
unreasonable application of—clearly established federal law. The state appellate court's factual assessment of the record in
support of its analysis is also eminently [*23] reasonable. Accordingly, Petitioner is not entitled to habeas relief on his claim
that he should have been permitted to represent himself.

IV. Substitute counsel
The Sixth Amendment provides a criminal defendant with the right "to have the Assistance of Counsel for his defense." U.S.
Const., amend. VI. One element of that right is the right to have counsel of one's choice. See United States v, Gonzalez-Lopez,
548 U.S. 140, 148, 126 S. Ct. 2557, 165 L. Ed. 2d 409 (2006). However, the right to counsel of choice is not without limits.
Id. at 148; United States v. Mooneyham, 473 F.3d 280, 291 (6th Cir. 2007). "[Tjhe right to counsel of choice does not extend
to defendants who require counsel to be appointed for them." Gonzalez-Lopez, 548 U.S. at 151 (citing Wheat v. United States,
486 U.S. 153, 159, 108 S. Ct. 1692, 100 L. Ed. 2d 140 (1988), and Caplin & Drysdale, Chartered v. United States, 491 U.S.
617, 624, 109 S. Ct. 2646, 109 S. Ct. 2667, 105 L. Ed. 2d 528 (1989)).
"'An indigent defendant has no right to have a particular attorney represent him and therefore must demonstrate "good cause"
to warrant substitution of counsel.'" Mooneyham, 473 F.3d at 29.1 (quoting United States v. lies, 906 F.2d 1122, 1130 (6th Cir.
1990)); see also Caplin & Drysdale, 491 U.S. at 624 ("[Tjhose who do not have the means to hire their own lawyers have no
cognizable complaint so long as they are adequately represented by attorneys appointed by the courts."). "Good cause" for a
substitution exists where there is "a conflict of interest, a complete breakdown in communication, or an irreconcilable conflict."
Stadlerv. Berghuis, 483 F. App'x 173, 178 (6th Cir. 2012) (quoting Wilson v. Mintzes, 761 F.2d 275, 280 (6th Cir. 1985)); see
also Lakin v. Stine, No. 99-1529, 2000 U.S. App. LEXIS 17953, 2000 WL 1256900, -"5 n.2 (6th Cir. July 13, 2000); Morton v.
Foltz, 782 F.2d 1042, 1985 U.S. App. LEXIS 13779, *4, 1985 WL 14072, n (6th Cir. 1985). Disagreements over strategy do
not suffice to establish good cause. See, e.g., United States v. Johnson, 612 F. App'x 345, 352 (6th Cir. 2015); [*24] United
States v. Herrera, 636 Fed. Appx. 250, 255 (6th Cir. 2016).
The Michigan Court of Appeals analysis of Petitioner's challenge tracks clearly established federal law:
The right to counsel is guaranteed by both the Fifth and Sixth Amendments to the United States Constitution, US
Const, Ams V and VI; Const 1963, art 1, §§ 17 and 20. The state must appoint counsel for an indigent defendant
who requests counsel, People vJackson, 483 Mich 271, 278, 769 N.W.2d 630; 483 Mich. 271, 769 NW2d 630
(2009), but an indigent defendant is not entitled to choose his own counsel, People v Russell, 471 Mich 182, 192,
684 N.W.2d 745 n 25; 471, Mich. 182, 684 NW2d 745 (2004) ("Defendant did not have the right to a third
appointed counselor, because no defendant is entitled to the appointed counselor of his choice."). The
appointment of substitute counsel is warranted only if the defendant shows good cause and if substitution of
counsel would not unreasonably disrupt the judicial process. Strickland, 293 Mich App at 397.
Defendant argues that his trial counsel's refusal to honor his request to obtain and use the Ottawa County
telephone calls constituted a serious disagreement regarding trial strategy that destroyed the attorney-client
relationship and warranted the appointment of substitute counsel. We disagree. "Counsel's decisions about
defense strategy, including what evidence to present and what arguments to make, are matters of trial strategy,
and disagreements with regard to trial strategy or professional judgment do not [*25] warrant appointment of
substitute counsel." Id. at 398 (footnotes omitted). Accordingly, the trial court did not abuse its discretion by
denying defendant's requests to appoint a fourth attorney.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD. 706.)
The disagreement between Petitioner and his counsel centered on counsel's refusal to pursue discovery regarding, and
introduce into evidence, telephone conversations between Petitioner and the victim that occurred while he was detained in the
Ottawa County Jail. As set forth fully below, counsel's decision to forego introduction of those conversations was strategic in
that the conversations would have informed the jury of other offenses Petitioner had committed and the benefit of the victim's
possibly exculpatory statements regarding her vengeful motive for reporting the incident were outweighed by Petitioner's
plainly inculpatory statements regarding his conduct on the night of the alleged abuse.
Moreover, no matter how piqued Petitioner may. have been with his counsel before the second trial, he was satisfied with
counsel's performance by the time the prosecutor had put on her entire case. The colloquy to determine whether Petitioner's
decision to testify [*26] was knowing and voluntary included the following exchange:
Q. And I understand that prior to this trial you wanted to fire [trial counsel] but I said no and we're going to trial
because it was last minute. But so far have you been happy with what he had done and his advice to you?
A. Yes I have your Honor.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l000516&crid=792... 5/31/2020

Page 7 of 9

(Trial II, Tr. Ill, ECF No. 9-17, PagelD.607-608.) Petitioner was under oath when he made that statement.
The state appellate court's determination that the differences between counsel and Petitioner with regard to the Ottawa County
Jail telephone recordings were matters of trial strategy and that such differences do not constitute good cause for a
substitution of counsel are well-supported by the record and consistent with, and a reasonable application of, clearly
established federal law. Accordingly, Petitioner is not entitled to habeas relief based on the state court's refusal to provide
substitute counsel.

V. Trial counsel's refusal to obtain impeachment evidence
Petitioner contends his counsel's refusal to obtain and introduce the content of the Ottawa County Jail recordings as
impeachment evidence rises to the level of constitutionally ineffective assistance. In Strickland v. Washington, 466 U.S. 668,
687-88, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), the Supreme Court [*27] established a two-prong test by which to
evaluate claims of ineffective assistance of counsel. To establish a claim of ineffective assistance of counsel, the petitioner
must prove: (1) that counsel's performance fell below an objective standard of reasonableness; and (2) that counsel's deficient
performance prejudiced the defendant resulting in an unreliable or fundamentally unfair outcome. A court considering a claim
of ineffective assistance must "indulge a strong presumption that counsel's conduct falls within the wide range of reasonable
professional assistance.” td. at 689. The defendant bears the burden of overcoming the presumption that the challenged action
might be considered sound trial strategy. Id. (citing Michel v. Louisiana, 350 U.S. 91, 101, 76 S. Ct. 158, 100 L. Ed. 83
(1955)); see also Nagi v. United States, 90 F.3d 130, 135 (6th Clr. 1996) (holding that counsel's strategic decisions were hard
to attack). The court must determine whether, in light of the circumstances as they existed at the time of counsel’s actions,
"the identified acts or omissions were outside the wide range of professionally competent assistance." Strickland, 466 U.S. at
690. Even if a court determines that counsel's performance was outside that range, the defendant is not entitled to relief if
counsel's error had no effect on the judgment. Id. at 691.
Moreover, as the [*28] Supreme Court repeatedly has recognized, when a federal court reviews a state court's application of
Strickland under § 2254(d), the deferential standard of Strickland is "doubly" deferential. Harrington, 562 U.S. at 105 (citing
Knowles v. Mirzayance, 556 U.S. Ill, 123, 129 S. Ct. 1411, 173 L. Ed. 2d 251 (2009)); see also Burt v. Titlow, 571 U.S. 12,
134 S. Ct. 10, 13, .1.87 L. Ed. 2d 348 (2013); Cullen v. Pinholster, 563 U.S. 170, 131 S. Ct. 1388, 1403, 179 L. Ed. 2d 557
(2011); Premo v. Moore, 562 U.S. 115, 122, 131 S. Ct. 733, 178 L. Ed. 2d 649 (2011). In those circumstances, the question
before the habeas court is "whether there is any reasonable argument that counsel satisfied Strickland's deferential standard."
Id.; Jackson v. Houk, 687 F.3d 723, 740-41 (6th Cir. 2012) (stating that the "Supreme Court has recently again underlined the
difficulty of prevailing on a Strickland claim in the context of habeas and AEDPA . . . .") (citing Harrington, 562 U.S. at 102).
The Michigan Court of Appeals considered Petitioner's claim under the following standard:
Effective assistance of counsel is presumed, and the defendant bears a heavy burden of proving otherwise. To
establish an ineffective assistance of counsel claim, a defendant must show that (1) counsel's performance was
below an objective standard of reasonableness under prevailing professional norms and (2) there is a reasonable
probability that, but for counsel's error, the result of the proceedings would have been different. A defendant
must also show that the result that did occur was fundamentally unfair or unreliable.
(Mich. Ct. App. Op., ECF No. 9-19, [*29] PagelD.707.) Although the court of appeals relied upon state authority, the
standard applied is essentially identical to the Strickland standard and, if one follows the chain of Michigan cases, is expressly
derived from Strickland. Strickland. People v. Stanaway, 446 Mich. 643, 521 N.W.2d 557, 587-588 (Mich. 1994). Thus, the
Michigan Court of Appeals applied the clearly established federal standard in deciding Petitioner's ineffective assistance claim.
Moreover, the state court of appeals applied the standard reasonably:
Defendant argues that trial counsel's failure to obtain the Ottawa County phone calls constituted ineffective
assistance because it deprived him of a substantial defense, i.e., it prevented the jury from hearing Baker state
that her allegations in the instant case were "payback" and thus deprived him of the opportunity to attack Baker's
credibility.
We conclude that trial counsel did not render ineffective assistance. Counsel's decision to not use the Ottawa
County phone calls to prevent the jury from learning that defendant was incarcerated on other charges
constituted trial strategy. Defendant wanted counsel to impeach Baker with her statement that the charges in the
instant case constituted "payback" for defendant wrecking her truck. On cross-examination, however, [*30]
defense counsel impeached Baker with her testimony from the preliminary examination and the first trial, and
demonstrated that her testimony at the second trial was substantially different from what she gave previously.
And as we have already explained, in context, the "payback" comment has little or no impeachment value.
Moreover, defendant’s argument fails to recognize that the Ottawa County recordings contain a great deal of
inculpatory material. Defendant argues that such material might have been excluded under MRE 403 as more
prejudicial than probative. We will not, however, substitute our own judgment on that strategic decision for the
judgment of defendant's trial counsel. See People v Matuszak, 263 Mich App 42, 58, 687 N.W.2d 342; 263 Mich.
App. 42, 687 NW2d 342 (2004). Indeed, given the risk of an adverse evidentiary ruling, we conclude that
counsel's trial strategy was prudent. The Ottawa County recordings contain defendant's admissions that (1) he
was first imprisoned for an offense when he was 19 years old, (2) he was incarcerated in Ottawa County for gunrelated charges, (3) he was drinking on the evening in question and has a substance abuse problem, and (4)
while at the park with Parker, he placed his hands on her throat and pushed her, leaving bruises.
Additionally, [*31] defendant's overall tone toward Baker in the recordings is both profane and verbally abusive.
There are hints of former domestic violence, and at one point Baker accuses him of leaving scars on her face in a
former incident. She also states that she is afraid of defendant, that he threatened to kill her and her dog on the
evening in question, and that he repeatedly said, "I should break every bone in your body." Finally, in the
recordings, defendant openly asks Baker to refuse to testify, advising her that disobeying her subpoena would not

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=792... 5/31/2020

Page 8 of 9

subject her to criminal prosecution. Hence, defendant has not overcome the presumption that counsel's refusal to
offer the recordings as evidence was reasonable trial strategy.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD.707-708.)
The Ottawa County Jail recordings appear in the record as part of the court of appeals pleadings. (ECF No. 9-19, PagelD.812817; ECF No. 9-20, PagelD.818-852.) The state court's description of the content of the recordings is well-supported in the
record. Even if the recordings might have revealed that the victim had reason to be vengeful because Petitioner destroyed her
vehicle, the recordings would have also revealed that [*32] Petitioner had an even more significant record of criminal
offenses than was already before the jury, and the recordings would have impeached Petitioner's sworn testimony regarding
the events of that night. The state court's determination that counsel's decision to forego introduction of the recordings was
not only strategic, but also reasonable, is itself eminently reasonable. Accordingly, Petitioner is not entitled to habeas relief on
his ineffective assistance claim.

VI. Prosecution's failure to correct false and perjured testimony
Finally, Petitioner contends that his trial was rendered fundamentally unfair by the prosecutor's failure to correct false and
perjured testimony. The Supreme Court repeatedly has recognized that "deliberate deception of a court and jurors by the
presentation of known false evidence is incompatible with 'rudimentary demands of justice."' Giglio v. United States, 405 U.S.
150, 153, 92 S. Ct. 763, 31 L. Ed. 2d 104 (1972) (quoting Mooney v. Holohan, 294 U.S. 103, 112, 55 S. Ct. 340, 79 L. Ed.
791 (1935)). To establish such a prosecutorial misconduct claim, Petitioner must show "(1) the statement was actually false;
(2) the statement was material; and (3) the prosecution knew it was false." United States v. Lochmondy, 890 F.2d 817, 822
(6th Cir. 1989) (citations omitted). See also Coe v. Beil, 161 F.3d 320 (6th Cir. 1998). Petitioner bears the burden of
demonstrating that the testimony was actually perjured. Lochmondy, 890 F.2d at 822 [*33] . "[Mjere inconsistencies in
testimony by government witnesses do not establish knowing use of false testimony.” Id.
The Michigan Court of Appeals rejected Petitioner's "perjured testimony" claim at the first step:
Defendant asserts that testimony given by Baker and her father, which indicated that Baker had a black eye
following the incident at the park with defendant, was actually false because the police report did not mention a
black eye and the photos taken by the police did not show that Baker had a black eye. Defendant contends that
the false testimony was material because it related directly to the charge of domestic violence, and he asserts
that the prosecutor knew that the testimony was false because at the preliminary examination the police officer
who took a statement from Baker did not report that Baker had a black eye. Defendant emphasizes that the
prosecutor did not correct the false testimony given by Baker and her father, and concludes that this false
testimony resulted in the jury convicting him of domestic violence.
Defendant's argument is meritless. Baker stated that that [sic] she sustained a cut lip that turned black and blue
at some point after the incident, and [*34] that she "ended up" with a black eye. On cross-examination, her
father stated that Baker's eye appeared black to him, further stating that her skin was discolored underneath her
eye and around her cheek bone. A fair reading of Baker's testimony indicates that bruising developed on her lip
and eye after some time had passed. It is possible that the bruising had not yet fully developed when Baker
spoke to the police and had her picture taken. Thus, defendant has not established that the testimony given by
Baker and her father regarding the condition of Baker's eye was actually false, let alone that the prosecution
knew such testimony to be false. Therefore, defendant's instant claim of error necessarily fails.
(Mich. Ct. App. Op., ECF No. 9-19, PagelD.708-709.) The state court's determination of the issue is entirely consistent with,
not contrary to or an unreasonable application of, clearly established federal law. Moreover, the court's factual determinations
with regard to the victim's testimony, the father's testimony, and inferences from that testimony are reasonable on this record.
Petitioner has failed to identify any "false" testimony; therefore his argument is meritless.

Certificate f*351 of Appealability
Unless a certificate of appealability is issued, an appeal of the denial of a habeas corpus petition may not be taken. 28 U.S.C. §
2253(c)(1). A certificate should issue if Petitioner has demonstrated a "substantial showing of a denial of a constitutional
right." 28 U.S.C. § 2253(c)(2). The Sixth Circuit Court of Appeals has disapproved issuance of blanket denials of a certificate of
appealability. Murphy v, Ohio, 263 F.3d 466 (6th Cir. 2001). Rather, the district court must "engage in a reasoned assessment
of each claim" to determine whether a certificate is warranted. Id. at 467.
I have examined each of Petitioner's claims under the standards set forth by the Supreme Court in Slack v. McDaniel, 529 U.S.
473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000). Under Slack, to warrant a grant of the certificate, "[t]he petitioner must
demonstrate that reasonable jurists would find the district court's assessment of the constitutional claims debatable or wrong.”
Id. "A petitioner satisfies this standard by demonstrating that . . . jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further." Miller-El v. Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029, 154 L. Ed. 2d 931
(2003). In applying this standard, the Court may not conduct a full merits review, but must limit its examination to a threshold
inquiry into the underlying merit of Petitioner's claims. Id.
I find that reasonable jurists would [*36] not conclude that this Court's denial of Petitioner's claims is debatable or wrong.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=792 ... 5/31/2020

\

3 XIQN3dddtf

Page 1 of 2

Lexis Advance®

Document: People v. Venegas, 2017 Mich. LEXIS 23

People v. Venegas, 2017 Mich. LEXIS 23
Copy Citation

Supreme Court of Michigan
January 5, 2017, Decided

SC: 154210
Reporter
2017 Mich. LEXIS 23 * 1 500 Mich. 925 | 888 N.W.2d 102

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v LEON VENEGAS, JR., Defendant-Appellant.

Prior History: [*1] COA: 325380. Ingham CC: 13-000927-FH.
People v. Venegas, 2016 Mich. App. LEXIS 1177 (Mich. Ct. App., June 16, 2016)

Judges: Robert P. Young, Jr. •», Chief Justice. Stephen J. Markman
David F. Viviano-*-, Richard H. Bernstein

Brian K. Zahra

Bridget M. McCormack ▼,

Joan L. Larsen ▼, Justices.

Opinion

Order
On order of the Court, the application for leave to appeal the June 16, 2016 judgment of the Court of Appeals is considered,
and it is DENIED, because we are not persuaded that the questions presented should be reviewed by this Court.

Content Type: Cases
Terms: 2017 MICH IEXIS 23
Narrow By: Sources: All States Cases
Date and Time: May 31,2020 07:37:36 a.m. CDT

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid-e07... 5/31/2020

J XIGN3ddtf

Page 1 of 5

Lexis Advance

Document: People v. Venegas, 2016 Mich. App. LEXIS 1177

People v. Venegas, 2016 Mich. App. LEXIS 1177

i.

Copy Citation

Court of Appeals of Michigan
June 16, 2016, Decided
No. 325380
Reporter
2016 Mich. App. LEXIS 1177 *

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v LEON VENEGAS, JR., Defendant-Appellant.

Notice: THIS IS AN UNPUBLISHED OPINION. IN ACCORDANCE WITH MICHIGAN COURT OF APPEALS RULES, UNPUBLISHED
OPINIONS ARE NOT PRECEDENTIALLY BINDING UNDER THE RULES OF STARE DECISIS.

Subsequent History: Leave to appeal denied by People v. Venegas, 500 Mich. 925, 888 N.W.2d 102, 2017 Mich. LEXIS 23
(Jan. 5, 2017)
Magistrate's recommendation at, Habeas corpus proceeding at Venegas v. Jackson, 2018 U.S. Dist. LEXIS 81627 (W.D. Mich
Mar. 5, 2018)

Prior History: [*1] Ingham Circuit Court. LC No. 13-000927-FH.

Core Terms
trial court, appointed, charges, recordings, request to represent, substitute counsel, domestic violence, trial strategy, self­
representation, phone, preliminary examination, defendant argues, false testimony, first trial, black eye

Judges: Before: SAWYER

P.J., and HOEKSTRA -r and WILDER

JJ.

Opinion
Per Curiam.
Defendant appeals as of right his jury trial convictions of domestic violence, third offense, MCL 750.81(4), and unlawful
imprisonment, MCL 750.349b. The trial court sentenced defendant as a fourth-offense habitual offender, MCL 769.12, to
concurrent prison terms of 60 to 200 months for the domestic violence conviction and 144 to 360 months for the unlawful
imprisonment conviction. We affirm.

I. FACTUAL BACKGROUND

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l000516&crid=597... 5/31/2020

Page 2 of 5
Defendant was charged with domestic violence (third offense), unlawful imprisonment, and witness retaliation, MCL 750 122
(8), arising out of a physical altercation with his then girlfriend, Angela Baker. On the date of the altercation, Baker drove
defendant to a park. Defendant was drinking alcohol and argued with Baker about leaving the park. According to Baker
defendant grabbed her keys, her key ring broke, and she sustained a cut finger. Roughly two hours later, she and defendant
drove to the hospital, where Baker received two stitches for the laceration on her finger. She went to the police department
the next day and reported the incident.
During the course of the proceedings below, Baker's testimony about the altercation [*2] changed in several respects At the
preliminary examination, Baker denied that defendant put his hands on her during the altercation. She also denied that
defendant had threatened her or attempted to influence her testimony in any way. But Baker later admitted that her testimony
at the preliminary examination was untruthful. Contrary to her prior testimony, she indicated that defendant had physically
assaulted her at the park, threatened her, and prevented her from leaving for several hours, only permitting her to drive to the
hospital after she promised she would not call the police. As a result, the prosecution entered an immunity agreement with
Baker under MCL 780.701. In exchange for her promise to testify truthfully at trial, Baker was granted immunity regardinq her
perjurious testimony at the preliminary examination.
At an early pretrial conference, the prosecution informed the trial court that defendant had attempted to use other Jail inmates'
calling cards to contact Baker, in direct contravention of the district court's order that defendant have neither phone privilege
nor any form of contact with Baker. The prosecution played a recording of a phone call between another inmate and the [*3]
mother of defendant s child; its purpose was to induce the mother to relay information to Baker. As a result the trial court
revoked defendant's bond and phone privileges.
Defendant was represented by three different appointed attorneys in the trial court, and he made several requests to
represent himself. At a bond hearing, defendant asked to represent himself after the trial court denied his request to appoint
new counsel. He repeatedly interrupted the trial court and continued to press his arguments after the trial judge had
announced her ruling. After ignoring the trial court's instruction for him to remain silent, defendant was held in contempt
While he was being removed from the courtroom, defendant went on a profanity ridden tirade. He cast aspersions at the court
and its officers, accused them of racism, and referred to the trial judge as "bitch."
Before trial, the defense sought to subpoena recordings of certain prison telephone conversations between defendant and
Baker that took place while defendant was incarcerated in the Ottawa County jail on unrelated charges. At a bond hearing
defendant's appointed counsel informed the court that he was having difficulty serving the [*4] subpoena. Defendant
requested substitute counsel, contending that his new counsel had done nothing for him and had lied to his family. The trial
court denied defendants request, reasoning that defendant had not shown a breakdown in the attorney-client relationship.
Defendant proceeded to trial twice. At the outset of defendant's first trial, defendant pointed out that counsel had still not
obtained the phone calls from Ottawa County. The trial court noted that the parties had discussed the matter and that defense
counsel had decided against using the calls on the ground that their content would be prejudicial to defendant Counsel stated
that he understood that in one call Baker stated that the charges in this case were "payback" for defendant's act of wrecking
her truck. Counsel acknowledged that such evidence could be viewed as exculpatory, but he contended that other exculpatory
evidence existed and stated that evidence that defendant had been incarcerated for other charges would be prejudicial to
defendant. Defendant again requested the appointment of substitute counsel. The trial court denied the request Thereafter
defendant briefly considered representing himself, but he ultimately [*5] decided to proceed with counsel.
Following deliberations after the first trial, the jury acquitted defendant of witness retaliation but was unable to reach a verdict
on the remaining charges. At the conclusion of the second trial, a jury convicted him of the remaining charges.
This appeal followed.

II. ANALYSIS

A. SELF-REPRESENTATION
Defendant first argues that the trial court violated his constitutional right to self-representation when it denied his requests to
represent himself. We disagree.
We review for an abuse of discretion a trial court's decision regarding a defendant's request to represent himself. People v
24C3~(2013)M'Ch APP 518, 521’ 675 NW2d 5" (2003)' As discussed in People v Dunigan, 299 Mich App 579, 587; 831 NW2d
The right of self-representation is secured by both the Michigan Constitution, Const 1963, art 1, § 13, and by
statute, MCL 763.1. The right of self-representation is also implicitly guaranteed by the Sixth Amendment of the
United States Constitution. People v Anderson, 398 Mich 361, 366; 247 NW2d 857 (1976). To invoke the right of
self-representation: (1) a defendant must make an unequivocal request to represent himself, (2) the trial court
must determine that the choice to proceed without counsel is knowing, intelligent, and voluntary, and (3) the trial
court must determine that the defendant s acting as his own counsel will not disrupt, unduly inconvenience and
burden the court and the administration [*6] of the court's business." Id. at 367-368.
The trial court also must comply with the requirements of MCR 6.005. People v Williams, 470 Mich 634, 642; 683 NW2d 597
(2004).
Defendant made several requests to represent himself throughout the proceedings in the trial court. The record demonstrates
that defendant's pattern was to react and seek to represent himself only when he seemed dissatisfied with a statement by
counsel or a ruling from the trial court. At the beginning of the first trial, the trial court engaged in an extensive discussion
with defendant regarding the seriousness of the charges he faced and the difficulties of representing himself. Defendant
decided to continue with counsel. This discussion substantially complied with Anderson and MCR 6.005(D).

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=597... 5/31/2020

Page 3 of 5

When defendant renewed his request to represent himself at the start of his second trial, again after receiving an unfavorable
ruling from the court, the trial court responded as follows:
THE DEFENDANT: I want to fire my attorney.
THE COURT: Denied. Have a seat.
THE DEFENDANT: Well, I'll represent myself then, how about that?
THE COURT: Have a seat, how about that? Now, you can either behave, sir, in this courtroom and have a trial
with your presence or you can have a trial without your presence. That’s my ruling. Have a seat. [*7]
Although the trial court stated no findings in support of its ruling, it is clear from the record that, in light of defendant's
identical request at the outset of the first trial, the trial court had concluded that defendant's request was not serious and that,
accordingly, further consideration under Anderson and MCR 6.005(D) was unnecessary. It is also clear from the trial court's
comments that it was concerned that defendant's proposed self-representation posed a significant danger of disrupting the
administration of the court's business, i.e., defendant's jury trial. Given defendant's outrageous behavior during pretrial
proceedings, and his disregard for prior court orders, we believe that the trial court's concern in that regard was well founded.
Thus, we conclude that the trial court did not abuse its discretion by denying defendant's request to represent himself.

B. SUBSTITUTE COUNSEL
Defendant also argues that the trial court erred by denying his repeated requests for substitute counsel. We disagree.
"A trial court's decision regarding substitution of counsel will not be disturbed absent an abuse of discretion," which occurs
when the trial court's decision is outside the range of principled [*8] outcomes. People v Strickland, 293 Mich App 393, 397;
810 NW2d 660 (2011) (quotation marks and citation omitted). The right to counsel is guaranteed by both the Fifth and Sixth
Amendments to the United States Constitution, US Const, Ams V and VI; Const 1963, art 1, §§ 17 and 20. The state must
appoint counsel for an indigent defendant who requests counsel, People v Jackson, 483 Mich 271, 278; 769 NW2d 630 (2009),
but an indigent defendant is not entitled to choose his own counsel, People v Russell, 471 Mich 182, 192 n 25; 684 NW2d 745
(2004) ("Defendant did not have the right to a third appointed counselor, because no defendant is entitled to the appointed
counselor of his choice."). The appointment of substitute counsel is warranted only if the defendant shows good cause and if
substitution of counsel would not unreasonably disrupt the judicial process. Strickland, 293 Mich App at 397.
Defendant argues that his trial counsel's refusal to honor his request to obtain and use the Ottawa County telephone calls
constituted a serious disagreement regarding trial strategy that destroyed the attorney-client relationship and warranted the
appointment of substitute counsel. We disagree. "Counsel's decisions about defense strategy, including what evidence to
present and what arguments to make, are matters of trial strategy, and disagreements with regard to trial strategy or
professional judgment do not warrant appointment of substitute counsel." Id, at 398 (footnotes omitted). Accordingly, the trial
court [*9] did not abuse its discretion by denying defendant's requests to appoint a fourth attorney.

C. EFFECTIVE ASSISTANCE OF COUNSEL
Next, defendant argues that trial counsel rendered constitutionally ineffective assistance by failing to obtain the Ottawa County
telephone calls. We disagree.
Because defendant did not move for a new trial or an evidentiary hearing in the trial court, and this Court denied defendant’s
motion to remand, our review is limited to errors apparent from the record. People v Heft, 299 Mich App 69, 80; 829 NW2d
266 (2012). Pursuant to this Court's earlier order,[Ta] however, we have deemed recordings of the Ottawa County calls to be
part of the record on appeal.
Effective assistance of counsel is presumed, and the defendant bears a heavy burden of proving otherwise. To
establish an ineffective assistance of counsel claim, a defendant must show that (1) counsel's performance was
below an objective standard of reasonableness under prevailing professional norms and (2) there is a reasonable
probability that, but for counsel's error, the result of the proceedings would have been different. A defendant
must also show that the result that did occur was fundamentally unfair or unreliable. [People v Lockett, 295 Mich
App 165, 187; 814 NW2d 295 (2012) (citations omitted).]
"A substantial defense [*10] Is one that could have affected the outcome of the trial." People v Putman, 309 Mich App 240,
248; 870 NW2d 593 (2015).
Defendant argues that trial counsel’s failure to obtain the Ottawa County phone calls constituted ineffective assistance because
it deprived him of a substantial defense, i.e., it prevented the jury from hearing Baker state that her allegations in the instant
case were "payback" and thus deprived him of the opportunity to attack Baker's credibility.
We conclude that trial counsel did not render ineffective assistance. Counsel's decision to not use the Ottawa County phone
calls to prevent the jury from learning that defendant was incarcerated on other charges constituted trial strategy.. Defendant
wanted counsel to impeach Baker with her statement that the charges in the instant case constituted "payback" for defendant
wrecking her truck. On cross-examination, however, defense counsel impeached Baker with her testimony from the

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=597... 5/31/2020

Page 4 of 5

preliminary examination and the first trial, and demonstrated that her testimony at the second trial was substantially different
from what she gave previously. And as we have already explained, in [*11] context, the "payback" comment has little or no
impeachment value.
Moreover, defendant's argument fails to recognize that the Ottawa County recordings contain a great deal of Inculpatory
material. Defendant argues that such material might have been excluded under MRE 403 as more prejudicial than probative.
We will not, however, substitute our own judgment on that strategic decision for the judgment of defendant's trial counsel. See
People v Matuszak, 263 Mich App 42, 58; 687 NW2d 342 (2004). Indeed, given the risk of an adverse evidentiary ruling, we
conclude that counsel's trial strategy was prudent. The Ottawa County recordings contain defendant's admissions that (1) he
was first imprisoned for an offense when he was 19 years old, (2) he was incarcerated in Ottawa County for gun related
charges, (3) he was drinking on the evening in question and has a substance abuse problem, and (4) while at the park with
Parker, he placed his hands on her throat and pushed her, leaving bruises. Additionally, defendant's overall tone toward Baker
in the recordings is both profane and verbally abusive. There are hints of former domestic violence, and at one point Baker
accuses him of leaving scars on her face in a former incident. She also states that she is afraid [*12] of defendant, that he
threatened to kill her and her dog on the evening in question, and that he repeatedly said, "I should break every bone in your
body." Finally, in the recordings, defendant openly asks Baker to refuse to testify, advising her that disobeying her subpoena
would not subject her to criminal prosecution. Hence, defendant has not overcome the presumption that counsel's refusal to
offer the recordings as evidence was reasonable trial strategy.

D. DUE PROCESS
Finally, defendant argues in his Standard 4 brief that he was denied due process because the prosecutor used false testimony
to obtain his convictions. We disagree.
Because defendant failed to raise this issue in the trial court, our review is for plain error affecting defendant's substantial
rights. People v Cannes, 460 Mich 750, 763-764; 597 NW2d 130 (1999). A person cannot be deprived of life, liberty, or
property without due process of law. US Const, Ams V, XIV; Const 1963, art 1, § 17; People v Bearss, 463 Mich 623, 629; 625
NW2d 10 (2001). "What process is due in a particular proceeding depends upon the nature of the proceeding, the risks and
costs involved, and the private and governmental interests that might be affected." People v Pitts, 222 Mich App 260, 263; 564
NW2d 93 (1997).
It is well-settled that the prosecution's knowing use of perjured testimony to secure a conviction violates the defendant's rights
to a fair [*13] trial and due process, but the remedy for such a violation—reversal of the conviction and remand for retrial—is
only necessary where the perjured testimony "is material to the defendant's guilt or punishment." People v Aceval, 282 Mich
App 379, 389-393; 764 NW2d 285 (2009). A prosecutor must disclose the giving of false testimony by a government witness
and must correct false evidence when it arises. People v Smith, 498 Mich 466, 475-477; 870 NW2d 299 (2015).
Defendant asserts that testimony given by Baker and her father, which indicated that Baker had a black eye following the
incident at the park with defendant, was actually false because the police report did not mention a black eye and the photos
taken by the police did not show that Baker had a black eye. Defendant contends that the false testimony was material
because it related directly to the charge of domestic violence, and he asserts that the prosecutor knew that the testimony was
false because at the preliminary examination the police officer who took a statement from Baker did not report that Baker had
a black eye. Defendant emphasizes that the prosecutor did not correct the false testimony given by Baker and her father, and
concludes that this false testimony resulted in the jury convicting him of domestic violence.
Defendant's argument is [*14] meritless. Baker stated that she sustained a cut lip that turned black and blue at some point
after the incident, and that she "ended up" with a black eye. On cross-examination, her father stated that Baker's eye
appeared black to him, further stating that her skin was discolored underneath her eye and around her cheek bone. A fair
reading of Baker's testimony indicates that bruising developed on her lip and eye after some time had passed. It is possible
that the bruising had not yet fully developed when Baker spoke to the police and had her picture taken. Thus, defendant has
not established that the testimony given by Baker and her father regarding the condition of Baker's eye was actually false, let
alone that the prosecution knew such testimony to be false. Therefore, defendant's instant claim of error necessarily fails.
Affirmed.
/s/ David H. Sawyer
/s/ Joel P. Hoekstra
/s/ Kurtis T. Wilder

Footnotes

HI People v Venegas, unpublished order of the Court of Appeals, entered November 18, 2015 (Docket No. 325380)

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l000516&crid=597... 5/31/2020

Additional material
from this filing is
available in the
Clerk's Office.

